   June 4, 2003




Acquisition


Diamond Jewelry Procurement
Practices at the Army and Air Force
Exchange Service
(D-2003-097)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAFES                 Army and Air Force Exchange Service
         Office of the Inspector General of the Department of Defense
Report No. D-2003-097                                                      June 4, 2003
  (Project No. D2003CK-0030)

               Diamond Jewelry Procurement Practices at the
                  Army and Air Force Exchange Service

                                Executive Summary

Who Should Read This Report and Why? DoD and Army and Air Force Exchange
Service (AAFES) procurement officials and others who are responsible for overseeing or
have an interest in AAFES procurement of diamond jewelry should read this report
because it discusses procurement practices for diamond solitaire rings.

Background. In September 2002, Senator Thad Cochran requested that the Inspector
General of the Department of Defense initiate an investigation of procurement practices
at AAFES. Specifically, Senator Cochran asked for verification of full-and-open
competition on a solicitation for diamond solitaire rings (AAFES Solicitation
No. SD-99-016-02-001) and that we report any cases where proposals were not given full
consideration. Senator Cochran was concerned about possible exclusionary procurement
practices relating to a current procurement of diamond solitaire rings.

The AAFES mission is to provide quality merchandise and services for soldiers, airmen,
and their families wherever they are stationed around the world and to generate
reasonable earnings that support Army and Air Force morale, welfare, and recreation
programs. For 2002, AAFES reported revenues totaling $7.1 billion. AAFES
Solicitation No. SD-99-016-02-001 had an estimated value of $10 million for a 2-year
contract period.

Results. AAFES Solicitation No. SD-99-016-02-001 was processed in accordance with
AAFES procurement policies and was intended to be a competitive award. Only 5 of the
15 prospective vendors responded to the solicitation. However, none of the five vendors
included three samples of each item as required in the solicitation. As a result, the
AAFES contracting officer canceled the solicitation on November 6, 2002, for lack of
responsive vendors and reissued the solicitation on February 7, 2003, with a lesser
sample requirement. The audit did not identify any exclusionary or unfair procurement
practices by AAFES against any vendor during the solicitation process for the
procurement of diamond solitaire rings.

Management Comments. We provided a draft of this report on May 14, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                             i

Background                                    1

Objectives                                    1

Finding
     Procurement of Diamond Solitaire Rings   2

Appendixes
     A. Scope and Methodology                 7
         Prior Coverage                       7
     B. Congressional Request                 8
     C. Report Distribution                   9
Background
    In September 2002, Senator Thad Cochran requested that the Inspector General of
    the Department of Defense initiate an investigation of the procurement practices
    at the Army and Air Force Exchange Service (AAFES) (Appendix B).
    Specifically, Senator Cochran asked for verification of full-and-open competition
    on a solicitation for diamond solitaire rings (Solicitation No. SD-99-016-02-001)
    and that we report any cases where proposals were not given full consideration.
    Senator Cochran was concerned about possible exclusionary procurement
    practices relating to a current procurement of diamond solitaire rings.

    During 2001 and 2002, AAFES conducted two internal audits and an
    investigation related to AAFES diamond procurement practices. (See the Finding
    section of the report for detailed discussion.)

    Army and Air Force Exchange Service. AAFES is a nonappropriated fund
    activity established and operated for the benefit of DoD Components. The
    AAFES mission is to provide quality merchandise and services for soldiers,
    airmen, and their families wherever they are stationed around the world and to
    generate reasonable earnings to support Army and Air Force morale, welfare, and
    recreation programs. AAFES has more than 12,000 facilities in more than
    25 countries and in all 50 states. The facilities are operated either directly or by
    way of contract with local businesses. For 2002, AAFES reported a net worth of
    $3.1 billion and generated revenue totaling $7.1 billion. The Under Secretary of
    Defense for Personnel and Readiness prescribes the procurement policies to be
    followed by AAFES.

    Solicitation for Diamond Solitaire Rings. Our audit focused on the solicitation
    and supporting documentation relating to a procurement of diamond solitaire
    rings. On July 30, 2002, an AAFES contracting officer issued a contract
    solicitation (Solicitation No. SD-99-016-02-001) for the procurement of
    135 pieces of different sizes and shapes of diamond solitaire rings. The
    solicitation, estimated at $10 million for a 2-year contract period, required
    offerors to submit a price for each of the 135 items and 3 samples of each item
    that would be used for quality inspection.


Objectives
    The audit objective was to determine if full-and-open competition existed and
    proposals were fairly evaluated for diamond jewelry procurements to include the
    Solitaire program. Specifically, we determined whether the diamond solitaire
    ring solicitation was processed in accordance with AAFES procurement policies
    and procedures. See Appendix A for a discussion of the audit scope and
    methodology.




                                         1
           Procurement of Diamond Solitaire Rings
           AAFES Solicitation No. SD-99-016-02-001 was processed in accordance
           with AAFES procurement policies and was intended to be a competitive
           award. Although 5 of the 15 prospective vendors responded to the
           solicitation, only three vendors met the solicitation requirement to submit
           a price for each of the 135 items solicited. In addition, none of the five
           vendors that submitted proposals included three samples of each item as
           required in the solicitation. As a result, the AAFES contracting officer
           canceled the solicitation on November 6, 2002, for lack of responsive
           vendors and reissued the solicitation on February 7, 2003, with a lesser
           sample requirement. The audit did not identify exclusionary or unfair
           procurement practices against any vendor during the solicitation process
           for the procurement of diamond solitaire rings.


AAFES Procurement Guidance
    DoD Directive 4105.67, “Nonappropriated Fund (NAF) Procurement
    Policy,” May 2, 2001. The directive prescribes procurement policies for
    nonappropriated fund activities like AAFES and requires nonappropriated fund
    procurements to use competitive negotiation procedures to the maximum extent
    practicable. The directive also requires that offers shall be solicited from a
    reasonable number of sources except when noncompetitive procurement is
    justified and contracts are awarded to responsible offerors with the best value for
    AAFES. The directive specifically provides that the Federal Acquisition
    Regulation and the Defense Federal Acquisition Regulation do not apply to
    AAFES procurements.

    Exchange Service Regulation 65-1, “Exchange Service Purchasing Policies,”
    January 2001. The regulation implements and supplements DoD
    Directive 4105.67. The regulation prescribes policies and provides guidance for
    AAFES personnel in performing purchasing functions. The regulation requires
    that AAFES purchase by full and free competition to the maximum extent
    practical. The regulation states:
               the normal method of purchasing is by written multiple source
               solicitation of a reasonable number of eligible sources to obtain
               adequate competition so the purchase will be to AAFES’ best
               advantage. Determining a reasonable number of sources is a
               contracting officer’s judgment decision based on the dollar amount of
               the purchase, competitiveness of the market, and number of interested
               offerors.

    Also, the regulation requires review of all proposed solicitations, contracts or
    amendments with estimated value of $1 million or more, regardless of type
    (except proposed customer service contracts with estimated sales over
    $1.5 million), by the designated review authority.




                                            2
     Exchange Operating Procedure 65-2, “Purchasing Commodities,”
     December 1992. Exchange Operating Procedure 65-2 establishes procedures for
     purchasing commodities (merchandise, supplies, equipment, and food). The
     procedure provides guidance to AAFES personnel for performing the purchase
     function and serves as a guide for selecting the type of contract and forms used.
     The procedure authorizes the purchase of commodity samples for product
     evaluations and also instructs the buyer to “keep the quantity of samples
     requested to the minimum required to make an objective product evaluation.”


Diamond Solitaire Ring Competitive Solicitation
     We reviewed the diamond solitaire ring solicitation and found no basis for
     allegations of possible exclusionary or unfair practices against any vendor during
     the solicitation process. On July 30, 2002, AAFES issued a multiple source
     solicitation to 15 prospective vendors for the procurement of 135 pieces of
     different sizes and shapes of diamond solitaire rings. The solicitation required
     offerors to submit a price for each of the 135 items solicited and 3 samples of
     each item to be used for quality inspection. The solicitation also required
     prospective vendors to submit their proposals to AAFES by 2:00 p.m. on
     September 4, 2002.

     Vendor Proposals and Responses. The contracting officer received proposals
     from five vendors as shown in the following table.

           Vendors           Original           Total Number of      Total Number of
                             Date/Time          Items for Which      Items for Which 3
                             Received           Price Proposed       Samples Provided
   Vendor A                  Sept. 3, 2002              20                   20
                             9:27 a.m.
   Vendor B                  Sept. 4, 2002             135                   54
                             8:13 a.m.
   Vendor C                  Sept. 4, 2002             135                   19
                             11:32 a.m.
   Vendor D                  Sept. 4, 2002             135                   72
                             4:28 p.m.
   Vendor E                  Sept. 6, 2002              15                   15
                             7:28 a.m.

     Of the five vendors that made a proposal, only three vendors (Vendors A, B, and
     C) made their proposals in time for the September 4, 2002, 2:00 p.m. deadline.
     Vendors A and E did not propose a price for each item solicited. In addition,
     none of the five vendors that made a proposal met the solicitation requirement for
     providing three samples of each item. Although the solicitation required that the
     vendors submit 3 samples of each of the 135 ring items, none of the 5 vendors
     submitted 3 samples for all of the items. As a result, the contracting officer
     determined that none of the vendor proposals were responsive to the solicitation.



                                          3
     Matrix Creations, Incorporated was one of the five vendors who submitted a
     proposal to the solicitation.

     Cancellation of the Solicitation. The AAFES contracting officer decided to
     cancel the solicitation for lack of responsive vendors. On November 6, 2002, the
     five vendors that made proposals were notified. According to AAFES personnel,
     the primary reason for the cancellation was that none of the vendors met the
     requirement to submit 3 samples for each of the 135 items solicited. The
     contracting officer reissued the solicitation to 15 prospective vendors on
     February 7, 2003. The new solicitation was the same as the original solicitation,
     except that the new solicitation changed the sample requirement to 1 sample for
     each of the 135 items solicited. Contract award was estimated for June 2003.


Internal Reviews and Investigation
     In May 2001, Senator Thad Cochran along with Representatives Tom Delay,
     Jerry Lewis, and Carolyn Maloney sent a letter to the Secretary of Defense
     requesting a thorough review of AAFES buying practices. Their concern was that
     one organization was treated unfairly in the evaluation of bids, which may
     indicate systemic buying practice failures that result in lower value products
     throughout the AAFES system. The Assistant Secretary of the Army (Manpower
     and Reserve Affairs) directed that AAFES internal audit staff review the
     congressional concerns.

     AAFES Internal Audit. AAFES Report No. 2001-09, “Diamond Procurement
     Process,” July 2001, states that allegations of biased or unfair treatment of Matrix
     Creations, Incorporated were unsubstantiated and that Matrix Creations,
     Incorporated did not submit proposed prices for all the items solicited. In
     addition, Matrix Creations, Incorporated proposals were higher than other
     responsive vendor prices. The report notes that administrative documentation
     related to the procurement process was not always adequate. However, the report
     discusses that the inadequate documentation did not affect Matrix Creations,
     Incorporated, and the report does not contain recommendations. The Assistant
     Secretary of the Army (Manpower and Reserve Affairs) requested that the Army
     Audit Agency evaluate the reasonableness of the audit work and the extent to
     which the audit work can be relied. The Army Audit Agency concluded that the
     AAFES report was appropriate and reliable.

     AAFES Expanded Audit. On April 1, 2002, the Commander, AAFES requested
     that the Audit Division, AAFES perform an expanded audit of the diamond
     jewelry procurement process and determine if the procurement actions were
     properly evaluated and awarded. The audit scope included procurement actions
     since July 2001. AAFES Report No. 2002-08, “Diamond Jewelry Procurement
     Process,” July 2002, states that the diamond jewelry procurement process was
     basically sound. However, the audit found that some diamond jewelry
     procurement actions were not completed in accordance with established policies
     and procedures. One multiple source solicitation contract was awarded to a low
     bidder even though the mountings on all six of the vendor’s samples failed quality
     assurance inspection. In addition, the buyer’s contracting dollar limit authority


                                          4
was exceeded for 8 of 21 contracts, and contract documentation justifying sole
source procurement actions was missing for all 21 contracts. The auditors also
noted jewelry quality certifications by commercial firms were not required to
provide the same level of quality assurance as the Atlanta Distribution Center
Gemological Laboratory provided. The audit report recommended corrective
actions for resolving the issues. Recommendations included ensuring that: future
buyers receive training on proper procurement practices, contracting dollar
authority is not exceeded, and procurement justification documents are completed
and included in the contract files. The AAFES management concurred with the
audit findings and initiated or planned actions to implement the recommendations.
The report states that management actions planned or taken in response to the
audit recommendations should resolve the concerns identified in the report. The
Audit Division planned to perform a followup audit of AAFES diamond jewelry
procurement in June 2003.

AAFES Internal Investigation. On April 25, 2002, the Commander of AAFES
directed an investigation by the Senior Policy Specialist, Corporate Policy
Division, AAFES of the business relationship between the AAFES jewelry
contracting officer and the President, Matrix Creations, Incorporated. The
investigation focused on Matrix Creations, Incorporated allegations that the
jewelry contracting officer:

   •   improperly demanded that Matrix Creations, Incorporated take back
       merchandise that had been ordered,

   •   dropped Matrix Creations, Incorporated products from the stock
       assortments in retaliation for refusal to take back merchandise,

   •   withheld information necessary to the bid process from Matrix Creations,
       Incorporated for its refusal to take back merchandise,

   •   required excessive documentation relative to the bid process from Matrix
       Creations, Incorporated for refusing to take back merchandise, and

   •   provided false or misleading information about the bid process for
       refusing to take back merchandise.
The investigation found no basis for the allegations and concluded that the
allegations were unsubstantiated. The investigation found that the jewelry
contracting officer’s lack of training and knowledge of the details required for
conducting multiple source solicitations contributed to the Matrix Creations,
Incorporated allegations. In addition, the report states that the overwhelming
workload compounded by the detailed nature of bid processes resulted in
confusion and misstatements by all parties involved. We confirmed that the
former jewelry contracting officer had been reassigned to a different position
since November 22, 2002.




                                     5
Conclusion
    The diamond solitaire rings solicitation was processed in accordance with AAFES
    procurement policies and procedures. Although 3 vendors proposed a price for
    each of the 135 ring items solicited, none of the vendors met all the solicitation
    requirements. Therefore, the review did not find exclusionary or unfair
    procurement practices against Matrix Creations, Incorporated or any other
    vendors for the procurement of diamond solitaire rings under AAFES Solicitation
    No. SD-99-016-02-001.

    The results of this audit, the AAFES audits, and the AAFES investigation did not
    substantiate the allegations of biased or unfair treatment of Matrix Creations,
    Incorporated in the procurement of diamond jewelry. The July 2001 AAFES
    report notes that administrative documentation related to the procurement process
    was not always adequate. However, the deficiencies did not affect Matrix
    Creations, Incorporated. The July 2002 AAFES report states that the diamond
    jewelry procurement process was basically sound. However, diamond
    procurement actions were not completed in accordance with established policies
    and procedures. The report includes three recommendations, and AAFES
    management was working to resolve the deficiencies. The AAFES Audit
    Division planned to perform a followup audit of AAFES diamond jewelry
    procurement in June 2003.

    .




                                        6
Appendix A. Scope and Methodology
     Work Performed. We visited AAFES headquarters, Dallas, Texas, and
     interviewed personnel from the Audit Division, General Counsel, Sales
     Directorate, Procurement Support and Policy, and Corporate Planning and
     Communications. We also interviewed the president of Matrix Creations,
     Incorporated.

     We reviewed AAFES policies and procedures for procurement of resale
     merchandise. We reviewed the AAFES 2003 audit plan and other audits and
     investigations performed by AAFES in response to allegations made by the
     president of Matrix Creations, Incorporated.

     We performed this audit from November 2002 through April 2003 in accordance
     with generally accepted government auditing standards. We focused the review
     on AAFES Solicitation No. SD-99-016-02-001 and supporting documentation
     relating to the procurement of diamond solitaire rings. The solicitation had an
     estimated value of $10 million for a 2-year contract period. The solicitation was
     the only procurement instrument concerning the procurement of diamond solitaire
     rings AAFES had issued at the time of review. We did not perform a review of
     the AAFES management control program because the audit was conducted in
     response to a congressional request.

     Use of Computer-Processed Data. We did not use computer-processed data to
     perform this audit.

     General Accounting Office High-Risk Area. The General Accounting Office
     has identified several high-risk areas in DoD. This report provides coverage of
     the DoD high-risk area identified as “Improve processes and controls to reduce
     contract risk.”


Prior Coverage
     During the last 5 years, AAFES issued two reports related to the diamond jewelry
     procurement process.


Army and Air Force Exchange Service

     AAFES Report No. 2002-08, “Diamond Jewelry Procurement Process,” July 2002

     AAFES Report No. 2001-09, “Diamond Procurement Process,” July 2001




                                         7
Appendix B. Congressional Request




                     8
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Commander, Army and Air Force Exchange Service

Non-Defense Federal Organization
Office of Management and Budget




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

Congressman Thad Cochran




                                        10
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Joseph P. Doyle
Deborah L. Carros
Peter I. Lee
Arsenio M. Sebastian
Melissa H. Boyd
Kimberly M. Haines
Sharon L. Carvalho
